            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
           STATE OF OHIO
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2001

    November 2002   A-77-03-00003




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   November 21, 2002                                                    Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject:   Management Advisory Report on the Single Audit of the State of Ohio for the Fiscal
           Year Ended June 30, 2001 (A-77-03-00003)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Ohio for the Fiscal Year ended June 30, 2001. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        The Ohio State Auditor performed the audit. The Department of Health and Human
        Services’ (HHS) desk review concluded that the audit met Federal requirements. In
        reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the Ohio State Auditor and the reviews performed by
        HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Ohio Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Ohio Rehabilitation Services
        Commission (RSC) is the Ohio DDS’ parent agency.

        The Ohio DDS’ Time Report of Personnel Services (SSA-4514) for the quarters ending
        December 2000 and June 2001 contained incorrect information (see Attachment).
        Specifically:
                                                                             Attachment
                                                                             Page 1 of 2



·   Medical consultant time was under-reported by 3,590 hours on the SSA-4514 for the
    quarter ended December 31, 2000.

·   Hearing officer overtime was under-reported by 510 hours and unpaid leave was
    over-reported by 865 hours on the SSA-4514 for the quarter ended June 30, 2001.

·   All other part-time employee overtime and unpaid leave were over-reported by
    579 hours and 355 hours, respectively, on the SSA-4514 for the quarter ended
    June 30, 2001.

The RSC’s corrective action plan indicates the process for providing the information for
the SSA-4514 has been reviewed and check points established to prevent errors in
future reports.

We recommend SSA remind the Ohio DDS to verify the accuracy of information
reported on the SSA-4514.

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




                                         Steven L. Schaeffer

Attachment
SCHEDULE OF FINDINGS AND QUESTIONED COSTS

                               OHIO REHABILITATION SERVICES COMMISSION

1. REPORTING

    Finding Number                     2001-RSC01-098

    CFDA Number and Title              96.001 - Social Security - Disability Insurance

    Federal Agency                     Social Security Administration


INTERNAL CONTROL - REPORTABLE CONDITION

An entity's internal control structure is placed in operation and maintained by management to prevent or detect
misstatements in the accounting records; to help ensure compliance with laws and regulations; and to provide a basis
for measuring whether program objectives have been achieved. To be effective, the performance of an internal
control procedure should be evidenced in some manner to provide assurance to other parties involved in the process
that the prescribed policy was followed.

The Commission is required by the Social Security Administration to prepare an SSA-4514 report on a quarterly basis
to report the number of hours employees provided services in conjunction with the Social Security - Disability
Insurance program. For two SSA-4514 reports tested, the following errors were noted:

•      The report filed for the quarter ending December 31, 2000 presented hours charged by medical consultants in
       the amount of 21,801.15; however, the attached supporting documentation indicated the hours charged totaled
       25,390.95. As a result, the medical consultant hours were under-reported by 3,589.80 hours or 14%.

•      The attachment to the report filed for the quarter ending June--30, 2001 presented 603.6 hours of overtime paid
       and 520 hours of unpaid leave in the all other part-time category. According to the Commission's supporting
       documentation, these hours should have been reported in the full-time hearing officer category. The hours
       listed in the hearing officer category totaled 93.5 for overtime hours paid and 1,384.5 hours of unpaid leave, but
       should have been recorded in the all other part-time category. While these hours should have been reported in
       the all other part-time category, the correct amount of overtime hours was 25 and the correct amount of unpaid
       leave hours was 165.4. As a result, the hours reported in the hearing officer category for overtime were under-
       reported by 510.1 (84%) and the hours of unpaid leave were over-reported by 864.5 (166%). The overtime
       hours for the all other part-time category were over-reported by 578.6 (2314%) and the unpaid leave hours were
       over-reported by 354.6 (214%).

Since the SSA-4514 is used by the Social Security Administration to evaluate the costs incurred by the Commission
in making disability determinations and to determine the funding level for the Commission, incorrect or
unsubstantiated data may result in a reduction of funding which could impede the service levels provided to Ohio
residents. According to the Human Resources Officer, the hours submitted from the Medical Department are not
reviewed. The Human Resources Officer stated the attachment to the June 30, 2001 report might have been
prepared using the prior quarter's figures or the numbers may have been accidently entered into the incorrect
category.

We recommend the Commission establish formal, standardized procedures for the review and approval of the SSA-
4514 prior to submission to the Social Security Administration. The review should be performed by a sufficient level
of management in order to provide reasonable assurance that all figures reported are adequately supported.
Information submitted by other departments should also be reviewed for accuracy before it is input into the SSA-
4514. Furthermore, we recommend the Commission contact the Social Security Administration to determine the
effects of these reporting misstatements and whether amended reports should be submitted.
                                                                                                         Attachment
                                                                                                         Page 3 of 2


                                               STATE OF OHIO
                                        CORRECTIVE ACTION PLAN
                                    JULY 1, 2000 THROUGH JUNE 30, 2001



OHIO REHABILITATION SERVICES COMMISSION

2001-RSC01-098 Reporting

Corrective Action Plan

RSC agrees that the hours reported on the 2 reports were in error. The Social Security Administration Regional
Office who receives the reports has been contacted and has informed RSC that agency funding will not be affected
by the error since the information provided is updated with the receipt of each subsequent quarterly report. It is
therefore also not necessary to submit a corrected report.

The process for providing the information for the SSA-4514 report has been reviewed and check points established
which should preclude a repeat of this situation in future reports.

Anticipated Completion Date for Corrective Action
Corrective action for this finding is considered complete.

Contact Person Responsible for Corrective Action
Bill McFarland, Finance Manager, Ohio Rehabilitation Services Commission, 400 East Campus View Boulevard,
Columbus, Ohio 43235, Phone: (614) 433-8201


OHIO DEPARTMENT OF TRANSPORTATION

2001-DOT01-099 Prevailing Wage

Corrective Action Plan
The Department will make corrective action in the following areas as they relate to the audit finding.

Monitoring Procedures

The Department will conduct regularly scheduled Quality Assurance Reviews of all district offices, to ensure their
compliance with the prevailing wage policies and procedures. Timely follow-up procedures will be implemented with
all district coordinators, to ensure that measures are taken to correct any identified weaknesses.

The Department's Central Office will develop a monthly reporting system, to monitor the progress of each district
coordinator, and to track the status of all reported prevailing wage law violations. This will help to ensure consistent
enforcement among all 12 districts, and improve upon existing oversight procedures.

Monitoring, Reporting, and Follow-up. on Issues of Non-Compliance

The implementation of an Enforcement Procedures Manual, will establish "standardized policies and procedures" to
be used by all district coordinators. This will aid in reviewing contractor compliance with prevailing wage laws, and
reporting violations. In addition, the Office of Contracts will schedule formal training meetings for all district
coordinators on a semi-annual basis, for the purpose of reinforcing the measures outlined in the Enforcement
Procedures Manual, ensuring consistent enforcement statewide, and providing updated information from the
Department of Labor, Wage and Hour Division.

Anticipated Completion Date for Corrective Action
May 1, 2002

Contact Person Responsible for Corrective Action
Dan Cores, Administrator, Office of Payroll and Project Accounting, Ohio Department of Transportation, 1980 West
Broad Street, Columbus, Ohio 43223, Phone: (614) 466-4777
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
